CERTIFICATE OF SERVICE
No. TBD
Timothy Dasler
Petitioner(s)
v.
Jennifer Dasler
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Timothy
Dasler Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
John Lofitus
Brannen & Loftus, PLLC
One Maple Street
Hanover, NH 03755
(603) 277-2971
Counselfor Jennifer Dasler

Ami

*. \

Dan Abramovich
October 7, 2019
SCP Tracking: Dasler-488 NH Rpute 10 _Apt. D-Cov.er White

